APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Memorandum Opinion of the United States
Court of Appeals for the Ninth Circuit
(January 3, 2020)................................................ 1a
Order of the United States District Court
for the Central District of California
(July 5, 2018) ...................................................... 6a
REHEARING ORDER
Order of the United States Court of Appeals for
the Ninth Circuit Denying Petition for
Rehearing (March 17, 2020)............................. 22a
STATUTORY PROVISIONS AND JUDICIAL RULES
Relevant Statutory Provisions
and Judicial Rules ............................................ 24a

App.1a
MEMORANDUM OPINION OF THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
(JANUARY 3, 2020)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
BARRY ROSEN,

Plaintiff-Appellant,
v.
UNITED STATES GOVERNMENT; ET AL.,

Defendants-Appellees.
________________________
No. 18-56059
D.C. No. 2:17-cv-07727-PSG-JEM
On Appeal from the United States District Court for
the Central District of California Philip S. Gutierrez,
District Judge, Presiding
Submitted December 13, 2019
Pasadena, California

 This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.
 The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

App.2a
Before: BOGGS, WARDLAW,
and BEA, Circuit Judges.
Barry Rosen appeals the district court’s dismissal
of this action for lack of standing. Rosen is a pilot, a
pro se plaintiff,1 and a serial litigant who is asking
that the federal courts invalidate a consent decree
entered in a different case between the City of Santa
Monica and the United States Government concerning
the Santa Monica Airport (“SMO”). SMO was transferred to the federal government during World War
II, then back to the City under the Surplus Property
Act, with conditions that may or may not still be valid
regarding its continuing use as an airport. Since the
beginning of the jet age, the City has been seeking to
close the airport, which has resulted in multiple
lawsuits and settlements between the City and the
federal government. The most recent of these ended
in a 2017 consent decree, under which the City may
shorten the runway immediately and must keep the
airport open until 2028, but is free thereafter to close
it. The case leading to the consent decree has drawn
proper intervenors (whose claims have been rejected)
and collateral challenges (thus far also unsuccessful,
though litigation continues).
Rosen did not move to intervene in that litigation.
Rather, in a separate series of complaints (four so
far, with a pending request to reverse the district
 The Honorable Danny J. Boggs, United States Circuit Judge
for the U.S. Court of Appeals for the Sixth Circuit, sitting by
designation.
1 Rosen filed his Opening Brief in this case pro se, but has
counsel listed on his Reply Brief.

App.3a
court’s denial of leave to file a fifth), Rosen asked the
district court to void not only the consent decree but
also an expired 1984 agreement between the same
parties and to require the federal government to take
over the airport or bring in a third party to administer
it. The district court held that Rosen did not have
standing on several grounds, granted defendants’
Rule 12(b)(1) motion to dismiss for lack of subjectmatter jurisdiction, and also concluded that Rosen’s
motion for partial summary judgment was moot.
Rosen now appeals, and we affirm.2
1. Rosen Lacks Standing. To begin with, he
cannot satisfy the requirement of redressability. See
Lujan v. Defenders of Wildlife, 504 U.S. 555, 561
(1992); M.S. v. Brown, 902 F.3d 1076, 1083 (9th Cir.
2018). Were we to void the consent decree, the City
and federal government would be back to the status
quo ante, under which the government at most has
the option to take over the airport, while the City
would be litigating to close it immediately. “To establish
redressability, a plaintiff must show that it is ‘likely,
as opposed to merely speculative, that the injury will
be redressed by a favorable decision.’” M.S., 902 F.3d
at 1083, quoting Lujan, 504 U.S. at 561. This case does
not clear that bar. Moreover, Rosen’s complaint about
the 1984 agreement between the federal government
and the City is not redressable, as that agreement
expired in 2015. See Caldwell v. Caldwell, 545 F.3d
1126, 1130 (9th Cir. 2008).
When it comes to his challenges to the current
litigation and consent decree, Rosen confuses practical
redressability with legal redressability, arguing that
2 We deny Rosen’s motion for summary disposition as moot.

App.4a
recent construction shortening the runway pursuant
to the consent decree is reversible. But the issue is
not whether the actions he proposes can physically
be taken. Rather, the question is the legal rights of
the City and federal government. Even if the district
court did what Rosen proposes—voiding the 2017
consent decree—the parties would have many options to
act in ways that would not redress Rosen’s grievances.
Finally, while Rosen urges the court to mandate
enforcement of a wide variety of statutes and regulations, which the federal government has allegedly
neglected with respect to Santa Monica and SMO, it is
an elementary point of law that individual enforcement
decisions are discretionary and non-reviewable. See,
e.g., Friends of Cowlitz v. FERC, 253 F.3d 1161, 1170
(9th Cir. 2001), amended in non-relevant part, 282
F.3d 609. Thus, these claims also are fatally flawed
for want of redressability.
2. Nor does Rosen assert sufficiently imminent
injury, with respect to many of his claims, to have
standing. “A plaintiff has sustained an injury in fact
only if [he] can establish “an invasion of a legally
protected interest which is . . . actual or imminent, not
conjectural or hypothetical.” Civil Rights Educ. & Enf’t
Ctr. v. Hosp. Properties Tr., 867 F.3d 1093, 1098 (9th
Cir. 2017) (quoting Lujan, 504 U.S. at 560. Most of
the harms Rosen complains about would not happen,
if at all, until after 2028. “[A] claim is not ripe for
adjudication if it rests upon contingent future events
that may not occur as anticipated, or indeed may not
occur at all.” Texas v. United States, 523 U.S. 296,
300 (1998) (cleaned up).
3. Furthermore, Rosen has not made out an
injury-in-fact. Thus far, his most specific and plausible

App.5a
allegation—contained in the proposed Fourth Amended
Complaint, which he was never given leave to file—is
that the shortening of the runway that was allowed
immediately under the consent decree has caused
him to have to perform go-arounds as well as to rent
hangar space elsewhere during construction. Even in
this unfiled complaint, Rosen does not provide sufficient
factual details to make these more than conclusory
statements that do not suffice to provide standing.
Cf. Ashcroft v. Iqbal, 556 U.S. 662, 682-83 (2009).
Rosen’s previous complaints offered even less in the
way of plausible detail. And even if Rosen in theory
could provide more detail, the district court was
within its discretion in denying him leave to amend a
fifth time. See Chodos v. West Publ’g Co., 292 F.3d
992, 1003 (9th Cir. 2002). His other allegations of
injury-in-fact fail as being insufficiently concrete and
particularized. See Lujan, 504 U.S. at 560.
4. Rosen’s attempts to bring the case under the
private-attorney-general doctrine fail because even if
there were statutory authority to bring such claims—
which there is not—he still would have to show
Article III standing in his own right, which he
cannot. See Gee v. American Nat. Ins. Co., 260 F.3d
997, 1001-02 (9th Cir. 2001).
5. As standing is a threshold requirement, and
as Rosen lacks it, we do not consider his other
grounds for appeal.
AFFIRMED.

App.6a
ORDER OF THE
UNITED STATES DISTRICT COURT FOR THE
CENTRAL DISTRICT OF CALIFORNIA
(JULY 5, 2018)
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES-GENERAL
________________________
BARRY ROSEN
v.
UNITED STATES GOVERNMENT,
FEDERAL AVIATION ADMINISTRATION,
and CITY OF SANTA MONICA
________________________
Case No. CV 17-7727 PSG (JEMx)
Proceedings (In Chambers):
The Court GRANTS Defendants’ motions to dismiss
and RENDERS MOOT Plaintiff’s motion for partial
summary judgment
Before: The Honorable Philip S. GUTIERREZ,
United States District Judge.
Before the Court is Defendants the City of Santa
Monica, Federal Aviation Administration, and United
States Government’s (“Defendants”) motions to dismiss,

App.7a

see Dkts. # 57 (“SM Mot.”), 58 (“Fed. Mot.”),1 and

Plaintiff Barry Rosen’s (“Plaintiff”) motion for partial
summary judgment, see Dkt. # 80 (“MSJ”). Plaintiff
filed oppositions to the motions to dismiss, see Dkts.
# 98 (“Fed. Opp.”), 99 (“SM Opp.”), and Defendants
replied, see Dkts. # 102 (“Fed. Reply”), 106 (“SM
Reply”). Defendants filed oppositions to the motion
for partial summary judgment, see Dkts. # 92 (“Fed.
MSJ Opp.”), 94 (“SM MSJ Opp.”), and Plaintiff replied,
see Dkts. # 109 (“SM MSJ Reply”), 110 (“Fed. MSJ
Reply”). The Court finds these matters appropriate
for decision without oral argument. See Fed. R. Civ. P.
78(b); L.R. 7-15. After considering the moving, opposing, and reply papers, the Court GRANTS Defendants’
motions to dismiss, and Plaintiff’s motion for summary
judgment is RENDERED MOOT.
I.

Background
A. Factual History

The complex background and procedural history of
this case is long, involving multiple other cases, courts,
and agencies, and centers on the ongoing disputes
about the Santa Monica Airport (“SMO” or “the
Airport), its use, and its future. Plaintiff recounts the
major events in the Airport’s roughly one-hundred
year history, including ownership, control, and usage.
See generally Dkt. # 56, Third Amended Complaint
(“TAC”). The Court does not find it necessary to detail
the Airport’s entire history here, and will address only
the facts it deems relevant to the present motions.
1 Defendants Federal Aviation Administration and United
States Government (collectively, “the Federal Defendants”) filed
a joint motion to dismiss.

App.8a
In 1981, the Santa Monica City Council adopted
a resolution that announced its “intention to close
SMO as soon as legally possible.” SM Mot. 3. Soon after,
Defendant the City of Santa Monica (“the City”)
adopted a new “Master Plan” for the Airport in 1983,
resulting in Defendant Federal Aviation Administration
(“FAA”) bringing enforcement actions against the
City. Id. In response to these actions, the parties
began negotiations which culminated in a settlement
agreement (“the 1984 Agreement”). TAC ¶ 19; SM
Mot. 3. The 1984 Agreement released land restrictions
on portions of the Airport for non-aviation purposes
and specified that it was required to operate as an
airport only until July 1, 2015. TAC ¶ 19; SM Mot. 3.
In 1994, the City accepted its last federal grant
under the contractual requirement that the Airport
would continue to operate for another twenty years,
or until June 29, 2014. SM Mot. 3. As the 2015 date
approached, the City Council in December 2010 decided
to initiate a “comprehensive public process” regarding
the Airport. Id. In April 2013, the process report concluded that the “status quo at the Airport was not
acceptable to residents.” Id. 3-4.
The growing public concern, confirmed by the
report’s findings, ignited a legal battle between the
City and federal government over myriad issues
regarding the Airport. Id. In October 2013, in an
effort to take control of those issues, the City filed a
quiet title action (“the Quiet Title Action”) against the
United States seeking a declaratory judgment that
the City had unencumbered title to SMO. See City of
Santa Monica v. United States, et al., 650 F. App’x.
326 (9th Cir. 2016); SM Mot. 4; TAC ¶ 24. While the
Quiet Title Action was pending, the City was involved

App.9a
in several other disputes related to its ability to exercise
control over Airport operations and to close SMO.
See SM Mot. 4. As a result of these disputes, and
following a lengthy public process, a Consent Decree
between the City and the federal government was
proposed, which would: (i) resolve all the outstanding
legal disputes between the City and the federal
government; (ii) require the City to operate SMO
only until December 31, 2028; and (iii) grant the City
the right to shorten the runway to 3,500 feet. TAC
¶ 27; Fed Mot. 4; SM Mot. 5. The proposed Consent
Decree itself did not dictate the shortening of the
runway or the eventual closure of the Airport; it
merely set forth a framework for local control of SMO
by the City, and granted it the right to shorten the
runway or close the Airport after 2028. See SM Mot. 9.
On January 30, 2017, the City and the federal
government executed the Consent Decree. Id. 5-6. On
February 1, 2017, the Honorable John F. Walter
entered an order approving the Consent Decree. Id. 6;
Fed. Mot. 4. Upon entry by the court, the City made
the Consent Decree publicly available by posting it on
the City’s website and began to hold public hearings
to determine the logistics and details of shortening
the Airport’s runway. SM Mot. 6. Defendants note
that Plaintiff was not in attendance at any of the
hearings. Id.
B. Procedural History
On October 23, 2017, Plaintiff initiated this
action by filing a petition for writ of mandate and a
complaint for declaratory and injunctive relief, as well
as an emergency ex parte application for a temporary
restraining order, to enjoin the City from shortening

App.10a
the runway. See Dkt. # 1, Complaint. Three days later,
this Court denied Plaintiff’s ex parte application on
multiple grounds. See Dkt. # 12; SM Mot. 1. Over the
course of the following four months (from mid-November 2017 to mid-March 2018), Plaintiff filed a First,
Second, and Third Amended Complaint. See Dkts.
# 28, 44, 56. The City completed the runway shortening
project construction on December 23, 2017. SM Mot.
8. Defendants now move to dismiss Plaintiff’s TAC,
and Plaintiff contemporaneously filed a motion for
partial summary judgment.
II.

Legal Standard
A. 12(b)(1)

Rule 12(b)(1) of the Federal Rules of Civil
Procedure (“FRCP”) governs the dismissal of a claim at
any time prior to final judgment if the court lacks
subject matter jurisdiction. It has been a long
recognized rule that “the jurisdiction of the court
depends upon the state of things at the time of the
action brought.” Grupo Dataflux v. Atlas Glob. Grp.,
L.P., 541 U.S. 567, 570 (2004) (citations omitted).
The plaintiff bears the burden of establishing that
subject matter jurisdiction exists. See Valdez v. United
States, 56 F.3d 1177, 1179 (9th Cir. 1995). When a
claim does not arise under any federal law, it does
not pose a federal question under 28 U.S.C. § 1331.

ARCO Envtl. Remediation, LLC v. Dep’t of Health
and Envtl. Quality, 213 F.3d 1108, 1113 (9th Cir. 2000).
B. 12(b)(6)

To survive a motion to dismiss under Rule
12(b)(6), a complaint must “contain sufficient factual

App.11a
matter, accepted as true, to ‘state a claim to relief
that is plausible on its face.’” Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009) (quoting Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007)). In assessing the
adequacy of the complaint, the court must accept all
pleaded facts as true and construe them in the light
most favorable to the plaintiff. See Turner v. City and
County of San Francisco, 788 F.3d 1206, 1210 (9th
Cir. 2015); Cousins v. Lockyer, 568 F.3d 1063, 1067
(9th Cir. 2009). The court then determines whether
the complaint “allows the court to draw the reasonable
inference that the defendant is liable for the misconduct alleged.” Iqbal, 556 U.S. at 678. However,
“[t]hreadbare recitals of the elements of a cause of
action, supported by mere conclusory statements, do
not suffice.” Id. Accordingly, “for a complaint to
survive a motion to dismiss, the non-conclusory factual
content, and reasonable inferences from that content,
must be plausibly suggestive of a claim entitling the
plaintiff to relief.” Moss v. U.S. Secret Serv., 572 F.3d
962, 969 (9th Cir. 2009) (internal quotation marks
omitted).
B. Motion for Summary Judgment
“A party may move for summary judgment,
identifying each claim or defense—or the part of each
claim or defense—on which summary judgment is
sought. The court shall grant summary judgment if
the movant shows that there is no genuine dispute as
to any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a).
A party seeking summary judgment bears the
initial burden of informing the court of the basis for
its motion and identifying those portions of the

App.12a
pleadings and discovery responses that demonstrate
the absence of a genuine issue of material fact. See
Celotex Corp. v. Catrett, 477 U.S. 317, 323 (1986). If
the nonmoving party will have the burden of proof at
trial, the movant can prevail by pointing out that
there is an absence of evidence to support the moving
party’s case. See id. If the moving party meets its
initial burden, the nonmoving party must set forth,
by affidavit or as otherwise provided in Rule 56,
“specific facts showing that there is a genuine issue
for trial.” Anderson v. Liberty Lobby, Inc., 477 U.S.
242, 248 (1986).
In judging evidence at the summary judgment
stage, the court does not make credibility determinations or weigh conflicting evidence. Rather, it draws all
reasonable inferences in the light most favorable to the
nonmoving party. See T.W. Elec. Serv., Inc. v. Pacific
Elec. Contractors Ass’n, 809 F.2d 626, 630-31 (9th Cir.
1987). The evidence presented by the parties must be
admissible. See Fed. R. Civ. P. 56(e). Conclusory,
speculative testimony in affidavits and moving papers
is insufficient to raise genuine issues of fact and
defeat summary judgment. See Thornhill Publ’g Co.,
Inc. v. Gen. Tel. & Elecs. Corp., 594 F.2d 730, 738 (9th
Cir. 1979).
III. Discussion
Plaintiff seeks declaratory relief, a writ of mandate,
and injunctive relief. See TAC ¶¶ 117, 134, 144.
Specifically, Plaintiff seeks a declaration that the
2013 lawsuit between the City and United States is
invalid ab initio on six different grounds; a declaration
ordering vacatur of the Consent Decree and portions
of the 1984 Agreement between the FAA and the

App.13a
City; a declaration that the signatures on the Consent
Decree are not binding; a writ of mandate directing
the FAA to comply with the Administrative Procedure
Act (“APA”) and National Environmental Policy Act
(“NEPA”); a writ of mandate directing FAA to ensure
the City complies with FAA regulations; a writ of
mandate for the City to comply with all environmental
obligations under NEPA, the California Environmental
Quality Act (“CEQA”), and other regulations; a writ
of mandate directing the City to comply with all
State and local regulations; a writ of mandate directing
the FAA to retain jurisdiction to ensure that the City
complies with FAA regulations; a writ of mandate
directing the City to choose between fees or a shortened
runway; preliminary and permanent injunctive relief
to cease any actions related to the Consent Decree;
orders or declarations that the City and the FAA
violated their ministerial obligations; and fees and
costs. Id. ¶¶ 144-169.
Plaintiff asserts a wide range of claims that do not
form cognizable causes of action, including “Invalid
Contract with Outside Counsel,” “Santa Monica had
absolutely no right to bring an Action pursuant to 28
U.S.C. § 2675, et al.,” “The Court Lack Jurisdiction over
CSM’s Action,” “FAA Overstepped its Authority in the
1984 Agreement,” “The [Consent] Decree is Invalid
ab initio because FAA Overstepped its Authority,”
“[Consent] Decree is Invalid due to City Council Conflict
of Interest,” “Violations of the Local Regulations and
CEQA,” and “Failure to Enforce Federal Regulations
Governing Public Airports.” Id. ¶¶ 30, 34, 40, 45, 51,
97, 102, 111. The Court will attempt to group Plaintiff’s
allegations into three categories: claims surrounding
the alleged violation of federal statutes and regulations;

App.14a
claims related to the 1984 Agreement; and claims
involving the Airport litigation, settlement agreement,
and Consent Decree. The Court now turns to Defendants’ motions to dismiss those claims.
A. Defendants’ Motions to Dismiss
i. Lack of Subject Matter Jurisdiction
All Defendants move to dismiss on the grounds
that the Court lacks subject matter jurisdiction because
Plaintiff lacks standing to bring his claims; they argue
that he does not allege a concrete injury, and any
possible injury he could have is not redressable by this
Court. See generally Fed. Mot.; SM Mot. To establish
Article III standing, a plaintiff must demonstrate that
he (1) “suffer[s] an ‘injury in fact’ which is (a) concrete and particularized and (b) ‘actual or imminent,
not conjectural or hypothetical,’” (2) “the injury has
to be fairly traceable to the challenged action of the
defendant,” and (3) “the injury will be ‘redressed by a
favorable decision.’” Lujan v. Defs. of Wildlife, 504
U.S. 555, 560 (citations omitted). These three elements must also be met when a plaintiff seeks relief
under the Declaratory Judgment Act. See Principal
Life Ins. Co. v. Robinson, 394 F.3d 665, 669-70 (9th
Cir. 2005) (“Requirement that a case or controversy
exists under the Declaratory Judgment Act is identical
to Article III’s”).
a. Federal Claims and Regulations
Plaintiff brings many claims against the Federal
Defendants on the basis that they have violated
federal statutes and regulations, including the APA,
NEPA, and FAA regulations, by, for instance, failing

App.15a
to file the correct claims, failing to allow for the
proper amount of time to pass, failing to conduct the
required environmental tests, and failing to enforce
their own regulations. See TAC ¶¶ 56, 70, 111, 148163. As with all of his claims, Plaintiff must establish
injury in fact and redressability to demonstrate that
he has standing. See Lujan, 504 U.S. at 560.
Plaintiff spends many pages in his TAC detailing
the history of the Airport and the litigation surrounding
it; he devotes little time to his own relationship to any
of those events. He states that as “a licensed pilot
. . . [and] a user of the Airport . . . [and] owner of an
aircraft based at the airport . . . [that he] has been
injured and continues to face damages . . . ” TAC ¶¶ 1,
9. He does not offer any specifics as to what that
injury might be or what his damages are, or how those
might be measured. The statement that he is the
owner of an aircraft at the Airport is not sufficient to
establish a concrete or particularized injury, nor is
the conclusory statement that he “has been injured.”
See Lujan, 504 U.S. at 560 (“Injury in fact must be
concrete and particularized . . . ”). Plaintiff also states
that he “is aware of numerous violations of such
regulations, including the fact that the City of Santa
Monica has been very discriminatory towards aviation
in general and has engaged in numerous activities to
keep or otherwise exclude aviation interests in general
. . . ” and that he has been on the “hangar waiting
list (which is very long)” for a few years. Id. ¶¶ 1, 9,
113. Plaintiff does not describe in any way how he
has been discriminated against, nor does he allege
any damages or costs he has suffered as a result of
being on the hangar waiting list.

App.16a
In short, Plaintiff has not sufficiently alleged
any concrete or particularized injury as a traceable
to any of the alleged federal violations, and thus the
first and second prongs of the standing inquiry fail.
Furthermore, to meet the third element, Plaintiff
must establish that his harms are redressable by the
Court. He falls short here as well. Even if the Court
were to find a concrete and traceable injury, Plaintiff
must prove that the “injury will be redressed by a
favorable decision.” Lujan, 504 U.S. at 560. Plaintiff
has not explained, for instance, how “vacatur of portions
of the 1984 Agreement” could redress any injury he
might have. TAC ¶ 67. In any event, the Court cannot
redress Plaintiff’s alleged injuries; a court has no
authority to review a discretionary agency decision
regarding enforcement of the agency’s regulations.
See Hosseini v. Gonzales, 471 F.3d 953, 956 (9th Cir.
2006) (“An agency’s discretionary decisions are
insulated from judicial review, whereas non-discretionary decisions can be challenged in court.”); People
for the Ethical Treatment of Animals, Inc. v. USDA,
797 F.3d 1087 (D.C. Cir. 2015). “[A]n agency’s decision
not to take enforcement action should be presumed
immune from judicial review under [5 U.S.C.] § 701
(a)(2).”); Heckler v. Chaney, 470 U.S. 821, 832 (1985).
Plaintiff has thus failed to establish standing to
bring claims regarding the Federal Defendants’ alleged
violations.
b. The 1984 Agreement
Plaintiff also seeks to invalidate portions of the
1984 Agreement between the City and the FAA
regarding certain land on the Airport property being
repurposed for non-aviation uses. See TAC ¶¶ 126,

App.17a
146, 155. Plaintiff has not offered any facts about
how an agreement made over 30 years ago and
resulting in the repurposing of a portion of the
Airport’s land injured him in any way, nor how any
concrete injury could be traced to the 1984 Agreement.
Furthermore, the 1984 Agreement expired in 2015,
so even if Plaintiff alleged an injury, the Court could
not redress it. Any claim Plaintiff might have arising
from the 1984 Agreement is moot. See ACLU of Mass.
v. U.S. Conference of Catholic Bishops, 705 F.3d 44,
55 (1st Cir. 2013) (affirming dismissal on mootness
grounds where plaintiff sought relief against expired
agreement).2
c. Airport Litigation, Resulting Settlement,
and Consent Decree
Plaintiff seeks to invalidate the entire prior
Airport litigation, resulting settlement, and Consent
Decree because he takes issue with the shortening of
the runway and the future closure of the Airport. See
TAC ¶¶ 148-156. As with the other claims, Plaintiff
has not alleged a concrete injury. See Fed. Mot. 11.
Rather, he alleges that other pilots have been injured
by the shortening of the runway, stating that the
resulting “very dangerous situation” caused “numerous
problems from [sic] pilots, including but not limited
to missed approaches . . . delays at other airports and
additional costs to other aircraft operators and or [sic]
potential aircraft spacing issues.” Id. ¶ 66. However,
2 Defendants also note that any cause of action Plaintiff asserts
relating to the 1984 Agreement is time-barred by the statute of
limitations; because the Court determines Plaintiff has not alleged
any injury and his claims are moot, it need not reach this issue.

App.18a
Plaintiff does not allege that he himself experienced
any of these issues, and he does not even point to any
concrete examples of these “numerous problems”
related to other pilots. See id. ¶¶ 65-66. Plaintiff alleges no injury to himself other than the previously
discussed assertion that he owns an aircraft; further,
any injury that could arise from the closure of the
Airport is far too speculative and distant to confer
Article III standing, given that it is over a decade
away and is far from a certainty.3 See Fed. Mot. 910. The Court agrees with Defendants that Plaintiff
has not stated a concrete, particularized, actual, or
imminent injury.
Even if Plaintiff had alleged injury, the redressability requirement would not be met here either.
Plaintiff seeks to force either the City, the FAA, or a
third party to re-lengthen the runway and prevent
the Airport from closing in the future. See generally
TAC. If the Court found the prior litigation, settlement agreement, or Consent Decree to be invalid on
any grounds, that would neither result in a reversal
of the runway shortening project nor force the Airport
to continue operating after 2028. At most, the ownership and control of the Airport and relationship
between the City and the FAA would revert back to
its previous state before the litigation, settlement,
3 Furthermore, the potential closure of the Airport under the
Consent Decree can happen, at the earliest, after December 31,
2028. See SM Mot. 9-10. Therefore, any potential injury is far
too speculative to be addressed at this point in time. See Marino
v. Country wide Fin. Corp., 26 F.Supp.3d 955, 960 (C.D. Cal. 2014)
(“[A] claim is not ripe for adjudication if it rests upon ‘contingent
future events that may not occur as anticipated, or indeed may not
occur at all.’”) (quoting Texas v. United States, 523 U.S. 296,
300 (1998)).

App.19a
and Consent Decree occurred. See Fed. Mot. 10-11.
Therefore, any injury to Plaintiff from the runway
shortening or future closure would not be redressed
by a favorable decision here.
Plaintiff has failed, therefore, to establish Article
III standing to bring any of his claims, because he
has no concrete injury traceable to Defendants that
is redressable by the Court.
ii. Private Attorney General
Plaintiff “also brings this action as a Private
Attorney General under the Private Attorney General
Doctrine in the public interest for the benefit of other
persons similarly affected or situated . . . due to there
being hundreds if not thousands of persons that are
similarly affected or situated.” TAC ¶¶ 1, 10. A plaintiff
cannot allege grievances on behalf of the public
unless the statute at issue provides him with such
authority. See Angela v. City of Albuquerque, 1:15CV-01048 WJ-LF, 2016 WL 10720431, *3 (D.N.M.
Feb. 16, 2016) (finding a plaintiff claiming he or she
is a private attorney general still must have statutory
basis); 31 U.S.C. § 3730(b). Plaintiff does not bring
any claims under a statute that qualifies him to act
as a private attorney general. See generally TAC.
Even if Plaintiff asserted a claim that provided
the right to act as a private attorney general, which
he does not, he is still not exempt from meeting
Article III standing requirements in federal court.
See Mangini v. R.J. Reynolds Tobacco Co., 793 F.
Supp. 925, 929 (N.D. Cal. 1992) (holding that a statecreated statutory right to act as a private attorney
general does not confer Article III standing in federal
court); Mortera v. N. Am. Mortg. Co., 172 F. Supp. 2d

App.20a
1240, 1243-44 (N.D. Cal. 2001). The Court has already
determined that Plaintiff lacks Article III standing,
and he also fails to establish the authority to bring
any cause of action as a private attorney general.
iii. Conclusion
Plaintiff has wholly failed to establish that he
has standing to bring any of his claims. Therefore,
the Court GRANTS Defendants’ motions to dismiss.
B. Plaintiff’s Motion for Partial Summary Judgment
Plaintiff filed a motion for partial summary
judgment on May 21, 2018, less than a month after
Defendants filed their respective motions to dismiss
on April 23, 2018. See Dkts. # 57, 58, 80. Because the
Court grants Defendants’ motions to dismiss, it need
not address whether the timing of Plaintiff’s motion
was proper. Plaintiff’s motion for partial summary
judgment is RENDERED MOOT.
IV. Leave to Amend
Whether to grant leave to amend rests in the
sound discretion of the trial court. See Bonin v.
Calderon, 59 F.3d 815, 845 (9th Cir. 1995). The Court
considers whether leave to amend would cause undue
delay or prejudice to the opposing party, and whether
granting leave to amend would be futile. See SissetonWahpeton Sioux Tribe v. United States, 90 F.3d 351,
355 (9th Cir. 1996). Generally, dismissal without
leave to amend is improper “unless it is clear that the
complaint could not be saved by any amendment.”
Jackson v. Carey, 353 F.3d 750, 758 (9th Cir. 2003).

App.21a
Because Plaintiff has already amended his complaint three times and still fails to establish the
threshold standing requirement, the Court determines
that amendment would be futile. Accordingly, the
Court DENIES Plaintiff leave to amend.
V.

Conclusion

For the foregoing reasons, the Court GRANTS
Defendants’ motions to dismiss without leave to
amend. Plaintiffs’ motion for partial summary judgment
is RENDERED MOOT.
This order closes the case.
IT IS SO ORDERED.

App.22a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT DENYING
PETITION FOR REHEARING
(MARCH 17, 2020)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
BARRY ROSEN,

Plaintiff-Appellant,
v.
UNITED STATES GOVERNMENT; ET AL.,

Defendants-Appellees.
________________________
No. 18-56059
D.C. No. 2:17-cv-07727-PSG-JEM
Central District of California, Los Angeles
Before: BOGGS, WARDLAW, and BEA,
Circuit Judges.
Judge Wardlaw votes to deny the petition for
rehearing en banc, and Judges Boggs and Bea so
recommend.

 The Honorable Danny J. Boggs, United States Circuit Judge
for the U.S. Court of Appeals for the Sixth Circuit, sitting by
designation.

App.23a
The full court has been advised of the petition
for rehearing en banc, and no judge has requested a
vote on whether to rehear the matter en banc. Fed.
R. App. P. 35.
The petition for rehearing en banc is therefore
DENIED.

App.24a
RELEVANT STATUTORY PROVISIONS
AND JUDICIAL RULES
STATUTORY PROVISIONS
5 U.S.C. § 702.—Right of Review
A person suffering legal wrong because of agency
action, or adversely affected or aggrieved by agency
action within the meaning of a relevant statute,
is entitled to judicial review thereof. An action in
a court of the United States seeking relief other
than money damages and stating a claim that an
agency or an officer or employee thereof acted or
failed to act in an official capacity or under color of
legal authority shall not be dismissed nor relief
therein be denied on the ground that it is against
the United States or that the United States is an
indispensable party. The United States may be
named as a defendant in any such action, and a
judgment or decree may be entered against the
United States: Provided, that any mandatory or
injunctive decree shall specify the Federal officer
or officers (by name or by title), and their
successors in office, personally responsible for
compliance. Nothing herein (1) affects other limitations on judicial review or the power or duty of
the court to dismiss any action or deny relief on
any other appropriate legal or equitable ground;
or (2) confers authority to grant relief if any other
statute that grants consent to suit expressly or
impliedly forbids the relief which is sought.

App.25a
5 U.S.C. § 704.—Actions Reviewable
Agency action made reviewable by statute and
final agency action for which there is no other
adequate remedy in a court are subject to judicial
review. A preliminary, procedural, or intermediate
agency action or ruling not directly reviewable is
subject to review on the review of the final agency
action. Except as otherwise expressly required
by statute, agency action otherwise final is final for
the purposes of this section whether or not there
has been presented or determined an application
for a declaratory order, for any form of reconsideration, or, unless the agency otherwise requires
by rule and provides that the action meanwhile
is inoperative, for an appeal to superior agency
authority.

31 U.S.C. § 1341.—Limitations on Expending and
Obligating Amounts
(a)
(1) Except as specified in this subchapter or
any other provision of law, an officer or
employee of the United States Government
or of the District of Columbia government
may not—
(A) make or authorize an expenditure or obligation exceeding an amount available
in an appropriation or fund for the
expenditure or obligation;
(B) involve either government in a contract
or obligation for the payment of money

App.26a
before an appropriation is made unless
authorized by law;
(C) make or authorize an expenditure or obligation of funds required to be sequestered under section 252 of the Balanced
Budget and Emergency Deficit Control
Act of 1985; or
(D) involve either government in a contract
or obligation for the payment of money
required to be sequestered under section
252 of the Balanced Budget and Emergency Deficit Control Act of 1985.
(2) This subsection does not apply to a
corporation getting amounts to make loans
(except paid in capital amounts) without
legal liability of the United States Government.
(b) An article to be used by an executive
department in the District of Columbia that
could be bought out of an appropriation made to
a regular contingent fund of the department may
not be bought out of another amount available
for obligation.
(c)
(1) In this subsection—
(A) the term “covered lapse in appropriations” means any lapse in appropriations that begins on or after December
22, 2018;
(B) the term “District of Columbia public
employer” means—

App.27a
(i) the District of Columbia Courts;
(ii) the Public Defender Service for
the District of Columbia; or
(iii) the District of Columbia government;
(C) the term “employee” includes an officer;
and
(D) the term “excepted employee” means
an excepted employee or an employee
performing emergency work, as such
terms are defined by the Office of
Personnel Management or the appropriate District of Columbia public
employer, as applicable.
(2) Each employee of the United States Government or of a District of Columbia public
employer furloughed as a result of a covered
lapse in appropriations shall be paid for the
period of the lapse in appropriations, and
each excepted employee who is required to
perform work during a covered lapse in
appropriations shall be paid for such work,
at the employee’s standard rate of pay, at
the earliest date possible after the lapse in
appropriations ends, regardless of scheduled pay dates, and subject to the enactment of appropriations Acts ending the lapse.
(3) During a covered lapse in appropriations,
each excepted employee who is required to
perform work shall be entitled to use leave
under chapter 63 of title 5, or any other
applicable law governing the use of leave by

App.28a
the excepted employee, for which compensation shall be paid at the earliest date
possible after the lapse in appropriations
ends, regardless of scheduled pay dates.

31 U.S.C. § 1342.—Limitation on Voluntary Services
An officer or employee of the United States
Government or of the District of Columbia
government may not accept voluntary services
for either government or employ personal
services exceeding that authorized by law
except for emergencies involving the safety of
human life or the protection of property. This
section does not apply to a corporation getting
amounts to make loans (except paid in capital
amounts) without legal liability of the United
States Government. As used in this section,
the term “emergencies involving the safety of
human life or the protection of property” does
not include ongoing, regular functions of
government the suspension of which would
not imminently threaten the safety of human
life or the protection of property.

31 U.S.C. § 1350.—Criminal Penalty
An officer or employee of the United States
Government or of the District of Columbia
government knowingly and willfully violating
section 1341(a) or 1342 of this title shall be
fined not more than $5,000, imprisoned for
not more than 2 years, or both.

App.29a

49 U.S.C. § 40103.—Sovereignty and Use of Airspace
(a) Sovereignty and Public Right of Transit.—
(1) The United States Government has exclusive sovereignty of airspace of the United States.
(2) A citizen of the United States has a public
right of transit through the navigable airspace. To
further that right, the Secretary of Transportation
shall consult with the Architectural and Transportation Barriers Compliance Board established
under section 502 of the Rehabilitation Act of 1973
(29 U.S.C. 792) before prescribing a regulation
or issuing an order or procedure that will have a
significant impact on the accessibility of commercial airports or commercial air transportation for
handicapped individuals.
(b) Use of Airspace.—
(1) The Administrator of the Federal Aviation
Administration shall develop plans and policy
for the use of the navigable airspace and assign
by regulation or order the use of the airspace
necessary to ensure the safety of aircraft and the
efficient use of airspace. The Administrator may
modify or revoke an assignment when required
in the public interest.
(2) The Administrator shall prescribe air traffic
regulations on the flight of aircraft (including
regulations on safe altitudes) for—
(A) navigating, protecting, and identifying aircraft;

App.30a
(B) protecting individuals and property on the
ground;
(C) using the navigable airspace efficiently; and
(D) preventing collision between aircraft, between
aircraft and land or water vehicles, and
between aircraft and airborne objects.

49 U.S.C. § 47101.—Policies
(a) General.
It is the policy of the United States—
(1) that the safe operation of the airport and
airway system is the highest aviation priority;
(2) that aviation facilities be constructed and
operated to minimize current and projected noise
impact on nearby communities;
(3) to give special emphasis to developing reliever
airports;
(4) that appropriate provisions should be made
to make the development and enhancement of
cargo hub airports easier;
(5) to encourage the development of intermodal
connections on airport property between aeronautical and other transportation modes and systems
to serve air transportation passengers and cargo
efficiently and effectively and promote economic
development;
(6) that airport development projects under
this subchapter provide for the protection and

App.31a
enhancement of natural resources and the
quality of the environment of the United States;
(7) that airport construction and improvement
projects that increase the capacity of facilities to
accommodate passenger and cargo traffic be undertaken to the maximum feasible extent so that
safety and efficiency increase and delays decrease;
(8) to ensure that nonaviation usage of the navigable airspace be accommodated but not allowed
to decrease the safety and capacity of the airspace
and airport system;
(9) that artificial restrictions on airport capacity—
(A) are not in the public interest;
(B) should be imposed to alleviate air traffic
delays only after other reasonably available
and less burdensome alternatives have been
tried; and
(C) should not discriminate unjustly between
categories and classes of aircraft;
(10) that special emphasis should be placed on
converting appropriate former military air bases
to civil use and identifying and improving
additional joint-use facilities;
(11) that the airport improvement program should
be administered to encourage projects that employ
innovative technology (including integrated
in-pavement lighting systems for runways and
taxiways and other runway and taxiway incursion
prevention devices), concepts, and approaches
that will promote safety, capacity, and efficiency

App.32a
improvements in the construction of airports and
in the air transportation system (including the
development and use of innovative concrete and
other materials in the construction of airport
facilities to minimize initial laydown costs, minimize time out of service, and maximize lifecycle
durability) and to encourage and solicit innovative
technology proposals and activities in the expenditure of funding pursuant to this subchapter;
(12) that airport fees, rates, and charges must
be reasonable and may only be used for purposes
not prohibited by this subchapter; and
(13) that airports should be as self-sustaining as
possible under the circumstances existing at
each particular airport and in establishing new
fees, rates, and charges, and generating revenues
from all sources, airport owners and operators
should not seek to create revenue surpluses that
exceed the amounts to be used for airport system
purposes and for other purposes for which airport
revenues may be spent under section 47107(b)(1)
of this title, including reasonable reserves and
other funds to facilitate financing and cover
contingencies.
(b) National Transportation Policy.
(1) It is a goal of the United States to develop a
national intermodal transportation system that
transports passengers and property in an efficient
manner. The future economic direction of the
United States depends on its ability to confront
directly the enormous challenges of the global
economy, declining productivity growth, energy

App.33a
vulnerability, air pollution, and the need to
rebuild the infrastructure of the United States.
(2) United States leadership in
economy, the expanding wealth of
States, the competitiveness of the
the United States, the standard of
the quality of life are at stake.

the world
the United
industry of
living, and

(3) A national intermodal transportation system
is a coordinated, flexible network of diverse but
complementary forms of transportation that
transports passengers and property in the most
efficient manner. By reducing transportation costs,
these intermodal systems will enhance the ability
of the industry of the United States to compete
in the global marketplace.
(4) All forms of transportation, including aviation
and other transportation systems of the future,
will be full partners in the effort to reduce energy
consumption and air pollution while promoting
economic development.
(5) An intermodal transportation system consists
of transportation hubs that connect different
forms of appropriate transportation and provides
users with the most efficient means of transportation and with access to commercial centers,
business locations, population centers, and the
vast rural areas of the United States, as well as
providing links to other forms of transportation
and to intercity connections.
(6) Intermodality and flexibility are paramount
issues in the process of developing an integrated
system that will obtain the optimum yield of
United States resources.

App.34a
(7) The United States transportation infrastructure must be reshaped to provide the economic
underpinnings for the United States to compete
in the 21st century global economy. The United
States can no longer rely on the sheer size of its
economy to dominate international economic rivals
and must recognize fully that its economy is no
longer a separate entity but is part of the global
marketplace. The future economic prosperity of
the United States depends on its ability to compete
in an international marketplace that is teeming
with competitors but in which a full one-quarter
of the economic activity of the United States
takes place.
(8) The United States must make a national
commitment to rebuild its infrastructure through
development of a national intermodal transportation system. The United States must provide
the foundation for its industries to improve
productivity and their ability to compete in the
global economy with a system that will transport
passengers and property in an efficient manner.
(c) Capacity Expansion and Noise Abatement.
It is in the public interest to recognize the effects
of airport capacity expansion projects on aircraft
noise. Efforts to increase capacity through any means
can have an impact on surrounding communities.
Noncompatible land uses around airports must be
reduced and efforts to mitigate noise must be given a
high priority.

App.35a
(d) Consistency with Air Commerce and Safety
Policies.
Each airport and airway program should be
carried out consistently with section 40101(a), (b),
(d), and (f) of this title to foster competition, prevent
unfair methods of competition in air transportation,
maintain essential air transportation, and prevent
unjust and discriminatory practices, including as the
practices may be applied between categories and
classes of aircraft.
(e) Adequacy of Navigation Aids and Airport
Facilities.
This subchapter should be carried out to provide
adequate navigation aids and airport facilities for
places at which scheduled commercial air service is
provided. The facilities provided may include—
(1) reliever airports; and
(2) heliports designated by the Secretary of
Transportation to relieve congestion at commercial service airports by diverting aircraft
passengers from fixed-wing aircraft to helicopter
carriers.
(f)

Maximum Use of Safety Facilities.

This subchapter should be carried out consistently with a comprehensive airspace system plan,
giving highest priority to commercial service airports,
to maximize the use of safety facilities, including
installing, operating, and maintaining, to the extent
possible with available money and considering other
safety needs—

App.36a
(1) electronic or visual vertical guidance on each
runway;
(2) grooving or friction treatment of each primary
and secondary runway;
(3) distance-to-go signs for each primary and
secondary runway;
(4) a precision approach system, a vertical visual
guidance system, and a full approach light system
for each primary runway;
(5) a nonprecision instrument approach for each
secondary runway;
(6) runway end identifier lights on each runway
that does not have an approach light system;
(7) a surface movement radar system at each
category III airport;
(8) a taxiway lighting and sign system;
(9) runway edge lighting and marking;
(10) radar approach coverage for each airport
terminal area; and
(11) runway and taxiway incursion prevention
devices, including integrated in-pavement lighting
systems for runways and taxiways.
(g) Intermodal Planning.
To carry out the policy of subsection (a)(5) of this
section, the Secretary of Transportation shall take
each of the following actions:
(1) Coordination in development of airport plans
and programs.—Cooperate with State and local officials
in developing airport plans and programs that are

App.37a
based on overall transportation needs. The airport plans
and programs shall be developed in coordination with
other transportation planning and considering comprehensive long-range land-use plans and overall social,
economic, environmental, system performance, and
energy conservation objectives. The process of developing airport plans and programs shall be continuing,
cooperative, and comprehensive to the degree appropriate to the complexity of the transportation problems.
(2) Goals for airport master and system plans.—
Encourage airport sponsors and State and local officials
to develop airport master plans and airport system
plans that—
(A) foster effective coordination between aviation
planning and metropolitan planning;
(B) include an evaluation of aviation needs within
the context of multimodal planning; and
(C) are integrated with metropolitan plans to
ensure that airport development proposals
include adequate consideration of land use
and ground transportation access.
(3) Representation of airport operators on
mpo’s.—Encourage metropolitan planning organizations, particularly in areas with populations
greater than 200,000, to establish membership
positions for airport operators.
(h) Consultation.
To carry out the policy of subsection (a)(6) of this
section, the Secretary of Transportation shall consult
with the Secretary of the Interior and the Administrator of the Environmental Protection Agency about

App.38a
any project included in a project grant application
involving the location of an airport or runway, or a
major runway extension, that may have a significant
effect on—
(1) natural resources, including fish and wildlife;
(2) natural, scenic, and recreation assets;
(3) water and air quality; or
(4) another factor affecting the environment.

49 U.S.C. § 47103.—
National Plan of Integrated Airport Systems
(a) General Requirements and Considerations.—
The Secretary of Transportation shall maintain the
plan for developing public-use airports in the United
States, named “the national plan of integrated airport
systems”. The plan shall include the kind and estimated cost of eligible airport development the Secretary
of Transportation considers necessary to provide a
safe, efficient, and integrated system of public-use
airports adequate to anticipate and meet the needs of
civil aeronautics, to meet the national defense requirements of the Secretary of Defense, and to meet
identified needs of the United States Postal Service.
Airport development included in the plan may not be
limited to meeting the needs of any particular classes
or categories of public-use airports. In maintaining
the plan, the Secretary of Transportation shall consider
the needs of each segment of civil aviation and the
relationship of each airport to—

App.39a
(1) the rest of the transportation system in the
particular area;
(2) forecasted technological developments in aeronautics; and
(3) forecasted developments in other modes of
intercity transportation.
(b) Specific Requirements.—
In maintaining the plan, the Secretary of Transportation shall—
(1) to the extent possible and as appropriate,
consult with departments, agencies, and instrumentalities of the United States Government, with
public agencies, and with the aviation community;
(2) consider tall structures that reduce safety
or airport capacity; and
(3) make every reasonable effort to address the
needs of air cargo operations, Short Takeoff and
Landing/Very Short Takeoff and Landing aircraft
operations, and rotary wing aircraft operations.
(c) Availability of Domestic Military Airports and
Airport Facilities.
To the extent possible, the Secretary of Defense
shall make domestic military airports and airport
facilities available for civil use. In advising the Secretary of Transportation under subsection (a) of this
section, the Secretary of Defense shall indicate the
extent to which domestic military airports and airport
facilities are available for civil use.

App.40a
(d) Publication.
The Secretary of Transportation shall publish the
status of the plan every 2 years.

49 U.S.C. § 47107.—
Project Grant Application Approval Conditioned on
Assurances About Airport Operations
(a) General Written Assurances.—
The Secretary of Transportation may approve a
project grant application under this subchapter for
an airport development project only if the Secretary
receives written assurances, satisfactory to the Secretary, that—
(1) the airport will be available for public use on
reasonable conditions and without unjust discrimination;
(2) air carriers making similar use of the airport will be subject to substantially comparable
charges—
(A) for facilities directly and substantially
related to providing air transportation; and
(B) regulations and conditions, except for differences based on reasonable classifications,
such as between—
(i)

tenants and nontenants; and

(ii) signatory and nonsignatory carriers;
(3) the airport operator will not withhold unreasonably the classification or status of tenant or
signatory from an air carrier that assumes

App.41a
obligations substantially similar to those already
imposed on air carriers of that classification or
status;
(4) a person providing, or intending to provide,
aeronautical services to the public will not be
given an exclusive right to use the airport, with
a right given to only one fixed-base operator to
provide services at an airport deemed not to be
an exclusive right if—
(A) the right would be unreasonably costly, burdensome, or impractical for more than one
fixed-base operator to provide the services;
and
(B) allowing more than one fixed-base operator to
provide the services would require reducing
the space leased under an existing agreement
between the one fixed-base operator and the
airport owner or operator;
(5) fixed-base operators similarly using the airport will be subject to the same charges;
(6) an air carrier using the airport may service
itself or use any fixed-base operator allowed by
the airport operator to service any carrier at the
airport;
(7) the airport and facilities on or connected
with the airport will be operated and maintained
suitably, with consideration given to climatic
and flood conditions;
(8) a proposal to close the airport temporarily for
a nonaeronautical purpose must first be approved
by the Secretary;

App.42a
(9) appropriate action will be taken to ensure that
terminal airspace required to protect instrument
and visual operations to the airport (including
operations at established minimum flight altitudes) will be cleared and protected by mitigating
existing, and preventing future, airport hazards;
(10) appropriate action, including the adoption
of zoning laws, has been or will be taken to the
extent reasonable to restrict the use of land next
to or near the airport to uses that are compatible
with normal airport operations;
(11) each of the airport’s facilities developed
with financial assistance from the United States
Government and each of the airport’s facilities
usable for the landing and taking off of aircraft
always will be available without charge for use
by Government aircraft in common with other
aircraft, except that if the use is substantial, the
Government may be charged a reasonable share,
proportionate to the use, of the cost of operating
and maintaining the facility used;
(12) the airport owner or operator will provide,
without charge to the Government, property interests of the sponsor in land or water areas or
buildings that the Secretary decides are desirable
for, and that will be used for, constructing at
Government expense, facilities for carrying out
activities related to air traffic control or navigation;
(13) the airport owner or operator will maintain
a schedule of charges for use of facilities and
services at the airport—

App.43a
(A) that will make the airport as self-sustaining
as possible under the circumstances existing
at the airport, including volume of traffic
and economy of collection; and
(B) without including in the rate base used for
the charges the Government’s share of costs
for any project for which a grant is made
under this subchapter or was made under
the Federal Airport Act or the Airport and
Airway Development Act of 1970;
(14) the project accounts and records will be
kept using a standard system of accounting that
the Secretary, after consulting with appropriate
public agencies, prescribes;
(15) the airport owner or operator will submit
any annual or special airport financial and operations reports to the Secretary that the Secretary
reasonably requests and make such reports
available to the public;
(16) the airport owner or operator will maintain
a current layout plan of the airport that meets
the following requirements:
(A) the plan will be in a form the Secretary prescribes;
(B) the Secretary will approve the plan and any
revision or modification before the plan, revision, or modification takes effect;
(C) the owner or operator will not make or allow
any alteration in the airport or any of its
facilities if the alteration does not comply
with the plan the Secretary approves, and the
Secretary is of the opinion that the alteration

App.44a
may affect adversely the safety, utility, or
efficiency of the airport; and
(D) when an alteration in the airport or its
facility is made that does not conform to the
approved plan and that the Secretary decides
adversely affects the safety, utility, or efficiency of any property on or off the airport
that is owned, leased, or financed by the
Government, the owner or operator, if
requested by the Secretary, will—
(i)

eliminate the adverse effect in a way
the Secretary approves; or

(ii) bear all cost of relocating the property
or its replacement to a site acceptable
to the Secretary and of restoring the
property or its replacement to the level
of safety, utility, efficiency, and cost of
operation that existed before the alteration was made;
(17) each contract and subcontract for program
management, construction management, planning
studies, feasibility studies, architectural services,
preliminary engineering, design, engineering,
surveying, mapping, and related services will be
awarded in the same way that a contract for
architectural and engineering services is negotiated under chapter 11 of title 40 or an equivalent
qualifications-based requirement prescribed for
or by the sponsor;
(18) the airport and each airport record will be
available for inspection by the Secretary on reasonable request, and a report of the airport budget

App.45a
will be available to the public at reasonable times
and places;
(19) the airport owner or operator will submit to
the Secretary and make available to the public
an annual report listing in detail—
(A) all amounts paid by the airport to any other
unit of government and the purposes for
which each such payment was made; and
(B) all services and property provided to other
units of government and the amount of
compensation received for provision of each
such service and property;
(20) the airport owner or operator will permit, to
the maximum extent practicable, intercity buses
or other modes of transportation to have access
to the airport, but the sponsor does not have any
obligation under this paragraph, or because of it,
to fund special facilities for intercity bus service
or for other modes of transportation; and
(21) if the airport owner or operator and a person
who owns an aircraft agree that a hangar is to
be constructed at the airport for the aircraft at
the aircraft owner’s expense, the airport owner
or operator will grant to the aircraft owner for
the hangar a long-term lease that is subject to
such terms and conditions on the hangar as the
airport owner or operator may impose.
(b) Written Assurances on Use of Revenue.—
(1) The Secretary of Transportation may approve
a project grant application under this subchapter
for an airport development project only if the

App.46a
Secretary receives written assurances, satisfactory
to the Secretary, that local taxes on aviation fuel
(except taxes in effect on December 30, 1987)
and the revenues generated by a public airport will
be expended for the capital or operating costs
of—
(A) the airport;
(B) the local airport system; or
(C) other local facilities owned or operated by
the airport owner or operator and directly
and substantially related to the air transportation of passengers or property.
(2) Paragraph (1) of this subsection does not
apply if a provision enacted not later than September 2, 1982, in a law controlling financing by
the airport owner or operator, or a covenant or
assurance in a debt obligation issued not later
than September 2, 1982, by the owner or operator,
provides that the revenues, including local taxes
on aviation fuel at public airports, from any of
the facilities of the owner or operator, including the
airport, be used to support not only the airport
but also the general debt obligations or other
facilities of the owner or operator.
(3) This subsection does not prevent the use of
a State tax on aviation fuel to support a State
aviation program or the use of airport revenue
on or off the airport for a noise mitigation
purpose.

App.47a
(c) Written Assurances on Acquiring Land.—
(1) In this subsection, land is needed for an airport purpose (except a noise compatibility purpose)
if—
(A)
(i)

the land may be needed for an aeronautical purpose (including runway protection
zone) or serves as noise buffer land; and

(ii) revenue from interim uses of the land
contributes to the financial self-sufficiency of the airport; and
(B) for land purchased with a grant the owner or
operator received not later than December
30, 1987, the Secretary of Transportation or
the department, agency, or instrumentality
of the Government that made the grant was
notified by the owner or operator of the use
of the land and did not object to the use and
the land is still being used for that purpose.
(2) The Secretary of Transportation may approve
an application under this subchapter for an
airport development project grant only if the
Secretary receives written assurances, satisfactory
to the Secretary, that if an airport owner or
operator has received or will receive a grant for
acquiring land and—
(A) if the land was or will be acquired for a
noise compatibility purpose—
(i)

the owner or operator will dispose of the
land at fair market value at the earliest
practicable time after the land no longer

App.48a
is needed for a noise compatibility purpose;
(ii) the disposition will be subject to retaining or reserving an interest in the land
necessary to ensure that the land will be
used in a way that is compatible with
noise levels associated with operating
the airport; and
(iii) the part of the proceeds from disposing
of the land that is proportional to the
Government’s share of the cost of
acquiring the land will be paid to the
Secretary for deposit in the Airport and
Airway Trust Fund established under
section 9502 of the Internal Revenue
Code of 1986 (26 U.S.C. 9502) or, as the
Secretary prescribes, reinvested in an
approved noise compatibility project,
including the purchase of nonresidential
buildings or property in the vicinity of
residential buildings or property previously purchased by the airport as part
of a noise compatibility program; or
(B) if the land was or will be acquired for an
airport purpose (except a noise compatibility purpose)—
(i)

the owner or operator, when the land no
longer is needed for an airport purpose,
will dispose of the land at fair market
value or make available to the Secretary
an amount equal to the Government’s
proportional share of the fair market
value;

App.49a
(ii) the disposition will be subject to retaining or reserving an interest in the land
necessary to ensure that the land will
be used in a way that is compatible with
noise levels associated with operating
the airport; and
(iii) the part of the proceeds from disposing
of the land that is proportional to the
Government’s share of the cost of
acquiring the land will be reinvested, on
application to the Secretary, in another
eligible airport development project the
Secretary approves under this subchapter
or paid to the Secretary for deposit in
the Fund if another eligible project does
not exist.
(3) Proceeds referred to in paragraph (2)(A)(iii)
and (B)(iii) of this subsection and deposited in the
Airport and Airway Trust Fund are available as
provided in subsection (f) of this section.
(d) Assurances of Continuation as Public-Use Airport.
The Secretary of Transportation may approve an
application under this subchapter for an airport development project grant for a privately owned public-use
airport only if the Secretary receives appropriate
assurances that the airport will continue to function
as a public-use airport during the economic life (that
must be at least 10 years) of any facility at the
airport that was developed with Government financial
assistance under this subchapter.

App.50a
(e) Written Assurances of Opportunities for Small
Business Concerns.—
(1) The Secretary of Transportation may approve
a project grant application under this subchapter
for an airport development project only if the
Secretary receives written assurances, satisfactory
to the Secretary, that the airport owner or operator
will take necessary action to ensure, to the
maximum extent practicable, that at least 10
percent of all businesses at the airport selling
consumer products or providing consumer services
to the public are small business concerns (as
defined by regulations of the Secretary) owned
and controlled by a socially and economically
disadvantaged individual (as defined in section
47113(a) of this title) or qualified HUBZone small
business concerns (as defined in section 3(p) of
the Small Business Act).
(2) An airport owner or operator may meet the
percentage goal of paragraph (1) of this subsection by including any business operated through
a management contract or subcontract. The dollar
amount of a management contract or subcontract
with a disadvantaged business enterprise shall be
added to the total participation by disadvantaged
business enterprises in airport concessions and to
the base from which the airport’s percentage goal
is calculated. The dollar amount of a management
contract or subcontract with a non-disadvantaged
business enterprise and the gross revenue of
business activities to which the management
contract or subcontract pertains may not be
added to this base.

App.51a
(3) Except as provided in paragraph (4) of this
subsection, an airport owner or operator may meet
the percentage goal of paragraph (1) of this
subsection by including the purchase from disadvantaged business enterprises of goods and
services used in businesses conducted at the
airport, but the owner or operator and the
businesses conducted at the airport shall make
good faith efforts to explore all available options
to achieve, to the maximum extent practicable,
compliance with the goal through direct ownership
arrangements, including joint ventures and
franchises.
(4)
(A) In complying with paragraph (1) of this
subsection, an airport owner or operator shall
include the revenues of car rental firms at
the airport in the base from which the
percentage goal in paragraph (1) is calculated.
(B) An airport owner or operator may require a
car rental firm to meet a requirement under
paragraph (1) of this subsection by purchasing or leasing goods or services from a
disadvantaged business enterprise. If an
owner or operator requires such a purchase
or lease, a car rental firm shall be permitted to
meet the requirement by including purchases
or leases of vehicles from any vendor that
qualifies as a small business concern owned
and controlled by a socially and economically
disadvantaged individual or as a qualified
HUBZone small business concern (as defined
in section 3(p) of the Small Business Act).

App.52a
(C) This subsection does not require a car rental
firm to change its corporate structure to
provide for direct ownership arrangements
to meet the requirements of this subsection.
(5) This subsection does not preempt—
(A) a State or local law, regulation, or policy
enacted by the governing body of an airport
owner or operator; or
(B) the authority of a State or local government
or airport owner or operator to adopt or
enforce a law, regulation, or policy related
to disadvantaged business enterprises.
(6) An airport owner or operator may provide
opportunities for a small business concern owned
and controlled by a socially and economically
disadvantaged individual or a qualified HUBZone
small business concern (as defined in section 3(p)
of the Small Business Act) to participate through
direct contractual agreement with that concern.
(7) An air carrier that provides passenger or
property-carrying services or another business
that conducts aeronautical activities at an airport
may not be included in the percentage goal of
paragraph (1) of this subsection for participation
of small business concerns at the airport.
(8) Not later than April 29, 1993, the Secretary
of Transportation shall prescribe regulations to
carry out this subsection.
(f)

Availability of Amounts.

An amount deposited in the Airport and Airway
Trust Fund under—

App.53a
(1) subsection (c)(2)(A)(iii) of this section is
available to the Secretary of Transportation to
make a grant for airport development or airport
planning under section 47104 of this title;
(2) subsection (c)(2)(B)(iii) of this section is
available to the Secretary—
(A) to make a grant for a purpose described in
section 47115(b) of this title; and
(B) for use under section 47114(d)(2) of this title
at another airport in the State in which the
land was disposed of under subsection
(c)(2)(B)(ii) of this section; and
(3) subsection (c)(2)(B)(iii) of this section is in
addition to an amount made available to the
Secretary under section 48103 of this title and
not subject to apportionment under section 47114
of this title.
(g) Ensuring Compliance.—
(1) To ensure compliance with this section, the
Secretary of Transportation—
(A) shall prescribe requirements for sponsors that
the Secretary considers necessary; and
(B) may make a contract with a public agency.
(2) The Secretary of Transportation may approve
an application for a project grant only if the
Secretary is satisfied that the requirements
prescribed under paragraph (1)(A) of this subsection have been or will be met.

App.54a
(h) Modifying Assurances and Requiring Compliance With Additional Assurances.—
(1) In general.—Subject to paragraph (2), before
modifying an assurance required of a person
receiving a grant under this subchapter and in
effect after December 29, 1987, or to require
compliance with an additional assurance from
the person, the Secretary of Transportation must—
(A) publish notice of the proposed modification
in the Federal Register; and
(B) provide an opportunity for comment on the
proposal.
(2) Public notice before waiver of aeronautical
land-use assurance.—Before modifying an assurance under subsection (c)(2)(B) that requires any
property to be used for an aeronautical purpose,
the Secretary must provide notice to the public
not less than 30 days before making such
modification.
(i)

Relief from Obligation to Provide Free Space.

When a sponsor provides a property interest in a
land or water area or a building that the Secretary of
Transportation uses to construct a facility at Government expense, the Secretary may relieve the sponsor
from an obligation in a contract made under this
chapter, the Airport and Airway Development Act of
1970, or the Federal Airport Act to provide free space
to the Government in an airport building, to the
extent the Secretary finds that the free space no
longer is needed to carry out activities related to air
traffic control or navigation.

App.55a
(j)

Use of Revenue in Hawaii.—
(1) In this subsection—
(A) “duty-free merchandise” and “duty-free sales
enterprise” have the same meanings given
those terms in section 555(b)(8) of the Tariff
Act of 1930 (19 U.S.C. 1555(b)(8)).
(B) “highway” and “Federal-aid system” have the
same meanings given those terms in section
101(a) of title 23.
(2) Notwithstanding subsection (b)(1) of this section, Hawaii may use, for a project for construction
or reconstruction of a highway on a Federal-aid
system that is not more than 10 miles by road
from an airport and that will facilitate access to
the airport, revenue from the sales at off-airport
locations in Hawaii of duty-free merchandise under
a contract between Hawaii and a duty-free sales
enterprise. However, the revenue resulting during
a Hawaiian fiscal year may be used only if the
amount of the revenue, plus amounts Hawaii
receives in the fiscal year from all other sources
for costs Hawaii incurs for operating all airports
it operates and for debt service related to capital
projects for the airports (including interest and
amortization of principal costs), is more than
150 percent of the projected costs for the fiscal
year.
(3)
(A) Revenue from sales referred to in paragraph (2) of this subsection in a Hawaiian
fiscal year that Hawaii may use may not be
more than the amount that is greater than

App.56a
150 percent as determined under paragraph
(2).
(B) The maximum amount of revenue Hawaii
may use under paragraph (2) of this subsection is $250,000,000.
(4) If a fee imposed or collected for rent, landing,
or service from an aircraft operator by an airport
operated by Hawaii is increased during the
period from May 4, 1990, through December 31,
1994, by more than the percentage change in the
Consumer Price Index of All Urban Consumers
for Honolulu, Hawaii, that the Secretary of Labor
publishes during that period and if revenue
derived from the fee increases because the fee
increased, the amount under paragraph (3)(B) of
this subsection shall be reduced by the amount
of the projected revenue increase in the period less
the part of the increase attributable to changes
in the Index in the period.
(5) Hawaii shall determine costs, revenue, and
projected revenue increases referred to in this
subsection and shall submit the determinations
to the Secretary of Transportation. A determination is approved unless the Secretary disapproves
it not later than 30 days after it is submitted.
(6) Hawaii is not eligible for a grant under section
47115 of this title in a fiscal year in which
Hawaii uses under paragraph (2) of this subsection
revenue from sales referred to in paragraph (2).
Hawaii shall repay amounts it receives in a fiscal
year under a grant it is not eligible to receive
because of this paragraph to the Secretary of

App.57a
Transportation for deposit in the discretionary
fund established under section 47115.
(7)
(A) This subsection applies only to revenue from
sales referred to in paragraph (2) of this
subsection from May 5, 1990, through
December 30, 1994, and to amounts in the
Airport Revenue Fund of Hawaii that are
attributable to revenue before May 4, 1990,
on sales referred to in paragraph (2).
(B) Revenue from sales referred to in paragraph (2) of this subsection from May 5,
1990, through December 30, 1994, may be
used under paragraph (2) in any Hawaiian
fiscal year, including a Hawaiian fiscal year
beginning after December 31, 1994.
(k) Annual Summaries of Financial Reports.
The Secretary shall provide to the Committee on
Commerce, Science, and Transportation of the Senate
and the Committee on Transportation and Infrastructure of the House of Representatives an annual
summary of the reports submitted to the Secretary
under subsection (a)(19) of this section and under
section 111(b) of the Federal Aviation Administration
Authorization Act of 1994.
(l)

Policies and Procedures to Ensure Enforcement
Against Illegal Diversion of Airport Revenue.—
(1) In general.—Not later than 90 days after
August 23, 1994, the Secretary of Transportation shall establish policies and procedures that
will assure the prompt and effective enforcement

App.58a
of subsections (a)(13) and (b) of this section and
grant assurances made under such subsections.
Such policies and procedures shall recognize the
exemption provision in subsection (b)(2) of this
section and shall respond to the information
contained in the reports of the Inspector General
of the Department of Transportation on airport
revenue diversion and such other relevant
information as the Secretary may by law consider.
(2) Revenue diversion.—Policies and procedures
to be established pursuant to paragraph (1) of
this subsection shall prohibit, at a minimum, the
diversion of airport revenues (except as authorized
under subsection (b) of this section) through—
(A) direct payments or indirect payments, other
than payments reflecting the value of services
and facilities provided to the airport;
(B) use of airport revenues for general economic
development, marketing, and promotional
activities unrelated to airports or airport
systems;
(C) payments in lieu of taxes or other assessments that exceed the value of services
provided; or
(D) payments to compensate nonsponsoring
governmental bodies for lost tax revenues
exceeding stated tax rates.
(3) Efforts to be self-sustaining.—With respect
to subsection (a)(13) of this section, policies and
procedures to be established pursuant to paragraph (1) of this subsection shall take into account,
at a minimum, whether owners and operators of

App.59a
airports, when entering into new or revised
agreements or otherwise establishing rates,
charges, and fees, have undertaken reasonable
efforts to make their particular airports as selfsustaining as possible under the circumstances
existing at such airports.
(4) Administrative safeguards.—Policies and
procedures to be established pursuant to paragraph (1) shall mandate internal controls, auditing
requirements, and increased levels of Department
of Transportation personnel sufficient to respond
fully and promptly to complaints received
regarding possible violations of subsections (a)(13)
and (b) of this section and grant assurances
made under such subsections and to alert the
Secretary to such possible violations.
(5) Statute of limitations.—In addition to the
statute of limitations specified in subsection
(n)(7), with respect to project grants made under
this chapter—
(A) any request by a sponsor or any other governmental entity to any airport for additional
payments for services conducted off of the
airport or for reimbursement for capital
contributions or operating expenses shall be
filed not later than 6 years after the date on
which the expense is incurred; and
(B) any amount of airport funds that are used
to make a payment or reimbursement as
described in subparagraph (A) after the
date specified in that subparagraph shall be
considered to be an illegal diversion of airport
revenues that is subject to subsection (n).

App.60a
(m) Audit Certification.—
(1) In general.—The Secretary of Transportation, acting through the Administrator of the
Federal Aviation Administration, shall include a
provision in the compliance supplement provisions
to require a recipient of a project grant (or any
other recipient of Federal financial assistance
that is provided for an airport) to include as part
of an annual audit conducted under sections
7501 through 7505 of title 31, a review concerning
the funding activities with respect to an airport
that is the subject of the project grant (or other
Federal financial assistance) and the sponsors,
owners, or operators (or other recipients) involved.
(2) Content of review.—A review conducted
under paragraph (1) shall provide reasonable
assurances that funds paid or transferred to
sponsors are paid or transferred in a manner
consistent with the applicable requirements of
this chapter and any other applicable provision
of law (including regulations promulgated by the
Secretary or the Administrator).
(n) Recovery of Illegally Diverted Funds.—
(1) In general.—Not later than 180 days after
the issuance of an audit or any other report that
identifies an illegal diversion of airport revenues
(as determined under subsections (b) and (l) and
section 47133), the Secretary, acting through the
Administrator, shall—
(A) review the audit or report;
(B) perform appropriate factfinding; and

App.61a
(C) conduct a hearing and render a final determination concerning whether the illegal
diversion of airport revenues asserted in the
audit or report occurred.
(2) Notification.—Upon making such a finding,
the Secretary, acting through the Administrator,
shall provide written notification to the sponsor
and the airport of—
(A) the finding; and
(B) the obligations of the sponsor to reimburse
the airport involved under this paragraph.
(3) Administrative action.—The Secretary may
withhold any amount from funds that would otherwise be made available to the sponsor, including
funds that would otherwise be made available to
a State, municipality, or political subdivision
thereof (including any multimodal transportation
agency or transit authority of which the sponsor
is a member entity) as part of an apportionment
or grant made available pursuant to this title, if
the sponsor—
(A) receives notification that the sponsor is
required to reimburse an airport; and
(B) has had an opportunity to reimburse the
airport, but has failed to do so.
(4) Civil action.—If a sponsor fails to pay an
amount specified under paragraph (3) during the
180-day period beginning on the date of notification and the Secretary is unable to withhold a
sufficient amount under paragraph (3), the
Secretary, acting through the Administrator, may
initiate a civil action under which the sponsor

App.62a
shall be liable for civil penalty in an amount
equal to the illegal diversion in question plus
interest (as determined under subsection (o)).
(5) Disposition of penalties.—
(A) Amounts withheld.—The Secretary or the
Administrator shall transfer any amounts
withheld under paragraph (3) to the Airport
and Airway Trust Fund.
(B) Civil penalties.—With respect to any amount
collected by a court in a civil action under
paragraph (4), the court shall cause to be
transferred to the Airport and Airway Trust
Fund any amount collected as a civil penalty
under paragraph (4).
(6) Reimbursement.—The Secretary, acting
through the Administrator, shall, as soon as
practicable after any amount is collected from a
sponsor under paragraph (4), cause to be transferred from the Airport and Airway Trust Fund
to an airport affected by a diversion that is the
subject of a civil action under paragraph (4),
reimbursement in an amount equal to the amount
that has been collected from the sponsor under
paragraph (4) (including any amount of interest
calculated under subsection (o)).
(7) Statute of limitations.—No person may bring
an action for the recovery of funds illegally
diverted in violation of this section (as determined
under subsections (b) and (l)) or section 47133
after the date that is 6 years after the date on
which the diversion occurred.

App.63a
(o) Interest.—
(1) In general.—Except as provided in paragraph (2), the Secretary, acting through the
Administrator, shall charge a minimum annual
rate of interest on the amount of any illegal
diversion of revenues referred to in subsection
(n) in an amount equal to the average investment
interest rate for tax and loan accounts of the
Department of the Treasury (as determined by
the Secretary of the Treasury) for the applicable
calendar year, rounded to the nearest whole
percentage point.
(2) Adjustment of interest rates.—If, with respect
to a calendar quarter, the average investment
interest rate for tax and loan accounts of the
Department of the Treasury exceeds the average
investment interest rate for the immediately
preceding calendar quarter, rounded to the nearest
whole percentage point, the Secretary of the
Treasury may adjust the interest rate charged
under this subsection in a manner that reflects
that change.
(3) Accrual.—Interest assessed under subsection
(n) shall accrue from the date of the actual illegal
diversion of revenues referred to in subsection (n).
(4) Determination of applicable rate.—The applicable rate of interest charged under paragraph
(1) shall—
(A) be the rate in effect on the date on which
interest begins to accrue under paragraph
(3); and

App.64a
(B) remain at a rate fixed under subparagraph
(A) during the duration of the indebtedness.
(p) Payment by Airport to Sponsor.—
If, in the course of an audit or other review
conducted under this section, the Secretary or
the Administrator determines that an airport owes
a sponsor funds as a result of activities conducted
by the sponsor or expenditures by the sponsor for
the benefit of the airport, interest on that amount
shall be determined in the same manner as
provided in paragraphs (1) through (4) of subsection (o), except that the amount of any interest
assessed under this subsection shall be determined
from the date on which the Secretary or the
Administrator makes that determination.
(q)
Notwithstanding any written assurances prescribed in subsections (a) through (p), a general
aviation airport with more than 300,000 annual
operations may be exempt from having to accept
scheduled passenger air carrier service, provided that
the following conditions are met:
(1) No scheduled passenger air carrier has provided service at the airport within 5 years prior
to January 1, 2002.
(2) The airport is located within or underneath
the Class B airspace of an airport that maintains
an airport operating certificate pursuant to section
44706 of title 49.
(3) The certificated airport operating under
section 44706 of title 49 does not contribute to

App.65a
significant passenger delays as defined by DOT/
FAA in the “Airport Capacity Benchmark Report
2001”.
(r)
An airport that meets the conditions of subsections (q)(1) through (3) is not subject to section 47524
of title 49 with respect to a prohibition on all scheduled
passenger service.
(s) Competition Disclosure Requirement.—
(1) In general.—The Secretary of Transportation
may approve an application under this subchapter
for an airport development project grant for a
large hub airport or a medium hub airport only
if the Secretary receives assurances that the
airport sponsor will provide the information
required by paragraph (2) at such time and in
such form as the Secretary may require.
(2) Competitive access.—On February 1 and
August 1 of each year, an airport that during the
previous 6-month period has been unable to accommodate one or more requests by an air carrier for
access to gates or other facilities at that airport
in order to provide service to the airport or to
expand service at the airport shall transmit a
report to the Secretary that—
(A) describes the requests;
(B) provides an explanation as to why the
requests could not be accommodated; and
(C) provides a time frame within which, if any,
the airport will be able to accommodate the
requests.

App.66a

49 U.S.C. § 47151.—
Authority to transfer an interest in surplus property
(a) General Authority.
Subject to sections 47152 and 47153 of this title,
a department, agency, or instrumentality of the
executive branch of the United States Government or
a wholly owned Government corporation may convey
to a State, political subdivision of a State, or taxsupported organization any interest in surplus
property—
(1) that the Secretary of Transportation decides
is—
(A) desirable for developing, improving, operating, or maintaining a public airport (as
defined in section 47102 of this title);
(B) reasonably necessary to fulfill the immediate
and foreseeable future requirements for developing, improving, operating, or maintaining
a public airport; or
(C) needed for developing sources of revenue from
nonaviation businesses at a public airport;
and
(2) if the Administrator of General Services
approves the conveyance and decides the interest
is not best suited for industrial use.
(b) Ensuring Compliance.
Only the Secretary may ensure compliance with
an instrument conveying an interest in surplus

App.67a
property under this subchapter. The Secretary may
amend the instrument to correct the instrument or to
make the conveyance comply with law.
(c) Disposing of Interests Not Conveyed Under This
Subchapter.
An interest in surplus property that could be
used at a public airport but that is not conveyed under
this subchapter shall be disposed of under other
applicable law.
(d) Waiver of Condition.
Before the Secretary may waive any condition
imposed on an interest in surplus property conveyed
under subsection (a) that such interest be used for an
aeronautical purpose, the Secretary must provide
notice to the public not less than 30 days before waiving
such condition.
(e) Requests by Public Agencies.
Except with respect to a request made by another
department, agency, or instrumentality of the executive
branch of the United States Government, such a
department, agency, or instrumentality shall give
priority consideration to a request made by a public
agency (as defined in section 47102) for surplus
property described in subsection (a) (other than real
property that is subject to section 2687 of title 10,
section 201 of the Defense Authorization Amendments
and Base Closure and Realignment Act (10 U.S.C.
2687 note), or section 2905 of the Defense Base Closure
and Realignment Act of 1990 (10 U.S.C. 2687 note))
for use at a public airport.

App.68a
49 U.S.C. § 47152.—Terms of conveyances
Except as provided in section 47153 of this title,
the following terms apply to a conveyance of an interest
in surplus property under this subchapter:
(1) A State, political subdivision of a State, or
tax-supported organization receiving the interest
may use, lease, salvage, or dispose of the interest
for other than airport purposes only after the
Secretary of Transportation gives written consent
that the interest can be used, leased, salvaged,
or disposed of without materially and adversely
affecting the development, improvement, operation, or maintenance of the airport at which the
property is located.
(2) The interest shall be used and maintained
for public use and benefit without unreasonable
discrimination.
(3) A right may not be vested in a person,
excluding others in the same class from using
the airport at which the property is located—
(A) to conduct an aeronautical activity requiring
the operation of aircraft; or
(B) to engage in selling or supplying aircraft,
aircraft accessories, equipment, or supplies
(except gasoline and oil), or aircraft services
necessary to operate aircraft (including maintaining and repairing aircraft, aircraft
engines, propellers, and appliances).
(4) The State, political subdivision, or taxsupported organization accepting the interest
shall clear and protect the aerial approaches to

App.69a
the airport by mitigating existing, and preventing
future, airport hazards.
(5) During a national emergency declared by the
President or Congress, the United States Government is entitled to use, control, or possess, without
charge, any part of the public airport at which
the property is located. However, the Government
shall—
(A) pay the entire cost of maintaining the part
of the airport it exclusively uses, controls, or
possesses during the emergency;
(B) contribute a reasonable share, consistent with
the Government’s use, of the cost of maintaining the property it uses nonexclusively, or
over which the Government has nonexclusive
control or possession, during the emergency;
and
(C) pay a fair rental for use, control, or possession of improvements to the airport made
without Government assistance.
(6) The Government is entitled to the nonexclusive use, without charge, of the landing area of
an airport at which the property is located. The
Secretary may limit the use of the landing area
if necessary to prevent unreasonable interference
with use by other authorized aircraft. However,
the Government shall—
(A) contribute a reasonable share, consistent with
the Government’s use, of the cost of maintaining and operating the landing area; and

App.70a
(B) pay for damages caused by its use of the
landing area if its use of the landing area is
substantial.
(7) The State, political subdivision, or taxsupported organization accepting the interest
shall release the Government from all liability
for damages arising under an agreement that
provides for Government use of any part of an
airport owned, controlled, or operated by the State,
political subdivision, or tax-supported organization
on which, adjacent to which, or in connection
with which, the property is located.
(8) When a term under this section is not satisfied, any part of the interest in the property
reverts to the Government, at the option of the
Government, as the property then exists.

California Govt code 54956
A special meeting may be called at any time by
the presiding officer of the legislative body of a
local agency, or by a majority of the members of
the legislative body, by delivering written notice
to each member of the legislative body and to
each local newspaper of general circulation and
radio or television station requesting notice in
writing. The notice shall be delivered personally
or by any other means and shall be received at
least 24 hours before the time of the meeting as
specified in the notice. The call and notice shall
specify the time and place of the special meeting
and the business to be transacted or discussed.
No other business shall be considered at these

App.71a
meetings by the legislative body. The written
notice may be dispensed with as to any member
who at or prior to the time the meeting convenes
files with the clerk or secretary of the legislative
body a written waiver of notice. The waiver may
be given by telegram. The written notice may
also be dispensed with as to any member who is
actually present at the meeting at the time it
convenes.
The call and notice shall be posted at least 24
hours prior to the special meeting in a location
that is freely accessible to members of the public.

California Govt code §54960.
(a) The district attorney or any interested
person may commence an action by mandamus,
injunction, or declaratory relief for the purpose
of stopping or preventing violations or threatened
violations of this chapter by members of the
legislative body of a local agency or to determine
the applicability of this chapter to actions or
threatened future action of the legislative body,
or to determine whether any rule or action by
the legislative body to penalize or otherwise
discourage the expression of one or more of its
members is valid or invalid under the laws of
this state or of the United States, or to compel
the legislative body to audio record its closed
sessions as hereinafter provided.

App.72a
10.04.020—posting of Agendas for Special and Emergency Meetings.
(a) At least twenty-four hours before a special
meeting of the City Council or any City board or
commission, an agenda of the special meeting
shall be conspicuously posted specifying the time
and location of the special meeting and a brief
general description of each item of business to be
transacted or discussed at the special meeting.
(b) Notice of the meeting shall be provided City
Council and board members or commissioners in
the manner provided for in Government Code
Section 54956.
(c) Unless an emergency occurs that severely
impairs public health or safety, no business other
than that which appears on the posted agenda
may be transacted at the special meeting.
(d) Emergency meetings of the City Council,
boards and commissions may be called and conducted in accordance with the provisions of
Government Code Section 54956.5.

JUDICIAL RULES
Federal Rule of Civil Procedure Rule 5—
Serving and Filing Pleadings and Other Papers
(a) Service: When Required
(1) In General
Unless these rules provide otherwise, each of the
following papers must be served on every party:

App.73a
(A) an order stating that service is required;
(B) a pleading filed after the original complaint,
unless the court orders otherwise under
Rule 5(c) because there are numerous
defendants;
(C) a discovery paper required to be served on a
party, unless the court orders otherwise;
(D) a written motion, except one that may be
heard ex parte; and
(E) a written notice, appearance, demand, or
offer of judgment, or any similar paper.
(2) If a Party Fails to Appear
No service is required on a party who is in
default for failing to appear. But a pleading that
asserts a new claim for relief against such a
party must be served on that party under Rule 4.
(3) Seizing Property
If an action is begun by seizing property and no
person is or need be named as a defendant, any
service required before the filing of an appearance,
answer, or claim must be made on the person
who had custody or possession of the property
when it was seized.
(b) Service: How Made
(1) Serving an Attorney
If a party is represented by an attorney, service
under this rule must be made on the attorney
unless the court orders service on the party.

App.74a
(2) Service in General
A paper is served under this rule by:
(A) handing it to the person;
(B) leaving it:
(i)

at the person’s office with a clerk or
other person in charge or, if no one is in
charge, in a conspicuous place in the
office; or

(ii) if the person has no office or the office
is closed, at the person’s dwelling or
usual place of abode with someone of
suitable age and discretion who resides
there;
(C) mailing it to the person’s last known
address—in which event service is complete
upon mailing;
(D) leaving it with the court clerk if the person
has no known address;
(E) sending it to a registered user by filing it
with the court’s electronic-filing system or
sending it by other electronic means that
the person consented to in writing—in
either of which events service is complete
upon filing or sending, but is not effective if
the filer or sender learns that it did not
reach the person to be served; or
(F) delivering it by any other means that the
person consented to in writing—in which
event service is complete when the person
making service delivers it to the agency
designated to make delivery.

App.75a
(3) Using Court Facilities
[Abrogated (Apr._, 2018, eff. Dec. 1, 2018)]
(c) Serving Numerous Defendants
(1) In General
If an action involves an unusually large number
of defendants, the court may, on motion or on its
own, order that:
(A) defendants’ pleadings and replies to them
need not be served on other defendants;
(B) any crossclaim, counterclaim, avoidance, or
affirmative defense in those pleadings and
replies to them will be treated as denied or
avoided by all other parties; and
(C) filing any such pleading and serving it on
the plaintiff constitutes notice of the pleading
to all parties.
(2) Notifying Parties
A copy of every such order must be served on the
parties as the court directs.
(d) Filing
(1) Required Filings; Certificate of Service
(A) Papers After the Complaint
Any paper after the complaint that is required to
be served—must be filed no later than a reasonable
time after service. But disclosures under Rule
26(a)(1) or (2) and the following discovery requests
and responses must not be filed until they are

App.76a
used in the proceeding or the court orders filing:
depositions, interrogatories, requests for documents or tangible things or to permit entry onto
land, and requests for admission.
(B) Certificate of Service
No certificate of service is required when a
paper is served by filing it with the court’s
electronic-filing system. When a paper that is
required to be served is served by other means:
(i)

if the paper is filed, a certificate of service
must be filed with it or within a reasonable
time after service; and

(ii) if the paper is not filed, a certificate of
service need not be filed unless filing is
required by court order or by local rule.
(2) Nonelectronic Filing
A paper not filed electronically is filed by delivering
it:
(A) to the clerk; or
(B) to a judge who agrees to accept it for filing,
and who must then note the filing date on
the paper and promptly send it to the clerk.
(3) Electronic Filing and Signing
(A) By a Represented Person—Generally
Required; Exceptions
A person represented by an attorney must file
electronically, unless nonelectronic filing is allowed
by the court for good cause or is allowed or
required by local rule.

App.77a
(B) By an Unrepresented Person—When
Allowed or Required
A person not represented by an attorney:
(i)

may file electronically only if allowed by court
order or by local rule; and

(ii) may be required to file electronically only
by court order, or by a local rule that
includes reasonable exceptions.
(C) Signing
A filing made through a person’s electronic-filing
account and authorized by that person, together
with that person’s name on a signature block,
constitutes the person’s signature.
(D) Same as a Written Paper
A paper filed electronically is a written paper for
purposes of these rules.
(4) Acceptance by the Clerk
The clerk must not refuse to file a paper solely
because it is not in the form prescribed by these
rules or by a local rule or practice.

Fed. R. Civ. P. 6
(d) Additional Time After Certain Kinds of
Service. When a party may or must act within a
specified time after being served and service is
made under Rule 5(b)(2)(C) (mail), (D) (leaving
with the clerk), or (F) (other means consented

App.78a
to), 3 days are added after the period would
otherwise expire under Rule 6(a).

Fed. R. Civ. P. 12
(a) Time to Serve a Responsive Pleading.
(1) In General. Unless another time is specified
by this rule or a federal statute, the time for
serving a responsive pleading is as follows:
(A) A defendant must serve an answer:
(i)

within 21 days after being served with
the summons and complaint; or

(ii) if it has timely waived service under Rule
4(d), within 60 days after the request
for a waiver was sent, or within 90 days
after it was sent to the defendant outside
any judicial district of the United States.

Fed. R. Civ. P. 15
(a) Amendments Before Trial.
(1) Amending as a Matter of Course. A party
may amend its pleading once as a matter of course
within:
(A) 21 days after serving it, or
(B) if the pleading is one to which a responsive
pleading is required, 21 days after service of
a responsive pleading or 21 days after service
of a motion under Rule 12(b), (e), or (f), whichever is earlier.

App.79a
(2) Other Amendments. In all other cases, a party
may amend its pleading only with the opposing
party’s written consent or the court’s leave. The
court should freely give leave when justice so
requires.
(3) Time to Respond. Unless the court orders
otherwise, any required response to an amended
pleading must be made within the time remaining to respond to the original pleading or within
14 days after service of the amended pleading,
whichever is later.

Fed. R. Civ. P. 55
(a) Entering a Default.
When a party against whom a judgment for affirmative relief is sought has failed to plead or
otherwise defend, and that failure is shown by
affidavit or otherwise, the clerk must enter the
party’s default.

Central District Local Rule 7-19
L.R. 7-19 Ex Parte Application.
An application for an ex parte order shall be
accompanied by a memorandum containing, if
known, the name, address, telephone number and
e-mail address of counsel for the opposing party,
the reasons for the seeking of an ex parte order,
and points and authorities in support thereof.

App.80a
An applicant also shall lodge the proposed ex parte
order.
L.R. 7-19.1 Notice of Application.
It shall be the duty of the attorney so applying
(a) to make reasonable, good faith efforts orally
to advise counsel for all other parties, if known,
of the date and substance of the proposed ex
parte application and (b) to advise the Court in
writing and under oath of efforts to contact other
counsel and whether any other counsel, after such
advice, opposes the application.

California Public Resources Code § 21177
An action or proceeding to attack, review, set
aside, void, or annul the following acts or decisions
of a public agency on the grounds of noncompliance
with this division shall be commenced as follows:
(a) An action or proceeding alleging that a public
agency is carrying out or has approved a
project that may have a significant effect on
the environment without having determined
whether the project may have a significant
effect on the environment shall be commenced
within 180 days from the date of the public
agency’s decision to carry out or approve the
project, or, if a project is undertaken without
a formal decision by the public agency, within
180 days from the date of commencement of
the project.

App.81a
California Public Resources Code § 21066
“Person” includes any person, firm, association,
organization, partnership, business, trust, corporation, limited liability company, company, district,
county, city and county, city, town, the state,
and any of the agencies and political subdivisions
of those entities, and, to the extent permitted by
federal law, the United States, or any of its
agencies or political subdivisions.

California Code of Civil Procedure § 1021.5 (private
attorney general)
Upon motion, a court may award attorneys’ fees
to a successful party against one or more opposing
parties in any action which has resulted in the
enforcement of an important right affecting the
public interest if: (a) a significant benefit, whether
pecuniary or nonpecuniary, has been conferred
on the general public or a large class of persons,
(b) the necessity and financial burden of private
enforcement, or of enforcement by one public
entity against another public entity, are such as
to make the award appropriate, and (c) such fees
should not in the interest of justice be paid out
of the recovery, if any. With respect to actions
involving public entities, this section applies to
allowances against, but not in favor of, public
entities, and no claim shall be required to be filed
therefor, unless one or more successful parties
and one or more opposing parties are public
entities, in which case no claim shall be required
to be filed therefor under Part 3 (commencing

App.82a
with Section 900) of Division 3.6 of Title 1 of the
Government Code.
Attorneys’ fees awarded to a public entity pursuant to this section shall not be increased or
decreased by a multiplier based upon extrinsic
circumstances, as discussed in Serrano v. Priest,
20 Cal. 3d 25, 49.

Central District of California L.R. 5-3.2.1—Service
Upon the electronic filing of a document, a “Notice
of Electronic Filing” (“NEF”) will be automatically
generated by the CM/ECF System and sent by email to: (1) all attorneys who have appeared in
the case in this Court and (2) all pro se parties
who have been granted leave to file documents
electronically in the case pursuant to L.R. 54.1.1 or who have appeared in the case and are
registered to receive service through the CM/ECF
System pursuant to L.R. 5-3.2.2. Unless service
is governed by F.R.Civ.P. 4 or L.R. 79-5.3, service
with this electronic NEF will constitute service
pursuant to the Federal Rules of Civil and
Criminal Procedure, and the NEF itself will constitute proof of service for individuals so served.
Individuals who have not appeared in the case
in this Court or who are not registered for the
CM/ECF System must be served in accordance
with F.R.Civ.P. 5, and proof of service on such
individuals must be made by declaration in the
form required by L.R. 5-3.1.2.

App.83a
Central District of California L.R. 7-12—
Failure to File Required Documents
The Court may decline to consider any memorandum or other document not filed within the
deadline set by order or local rule. The failure to
file any required document, or the failure to file
it within the deadline, may be deemed consent
to the granting or denial of the motion, with the
exception that a motion pursuant to F.R.Civ.P. 56
may not be granted solely based on the failure to
file an opposition

Central District of California L.R. 83-2.1.1—
Appearance Before the Court
L.R. 83-2.1.1.1—Who May Appear
Except as provided in L.R. 83-2.1.3, 83-2.1.4, 832.1.5, 83-4.5, and F.R.Civ.P. 45(f), an appearance
before the Court on behalf of another person, an
organization, or a class may be made only by
members of the Bar of this Court, as defined in
L.R. 83-2.1.2.

Central District of California L.R. 83-2.1.2—
The Bar of this Court
L.R. 83-2.1.2.1—In General
Admission to and continuing membership in the
Bar of this Court are limited to persons of good
moral character who are active members in good
standing of the State Bar of California. If an

App.84a
attorney admitted to the Bar of this Court ceases
to meet these criteria, the attorney will be subject
to the disciplinary rules of the Court, infra.

Central District of California L.R. 83-2.1.4—
Attorneys for the United States, or Its Departments
or Agencies
L.R. 83-2.1.4.1—Attorney for the United States, or
its Departments or Agencies
Any person who is not eligible for admission under
L.R. 83-2.1.2 or 83-2.1.3, who is employed within
this state and is a member in good standing of,
and eligible to practice before, the bar of any
United States Court, the District of Columbia
Court of Appeals, or the highest court of any State,
Territory or Insular Possession of the United
States, and is of good moral character, may be
granted leave of court to practice in this Court in
any matter for which such person is employed or
retained by the United States, or its departments
or agencies. The application for such permission
must include a certification filed with the Clerk
showing that the applicant has applied to take the
next succeeding Bar Examination for admission
to the State Bar of California for which that
applicant is eligible. No later than one year after
submitting the foregoing application, the applicant
must submit to this Court proof of admission to
the State Bar of California. Failure to do so will
result in revocation of permission to practice in
this Court.

App.85a
California Business and Professions Code 6125
No person shall practice law in California unless
the person is an active licensee of the State Bar.

California Business and Professions Code 6126
(a) Any person advertising or holding himself
or herself out as practicing or entitled to practice
law or otherwise practicing law who is not an
active licensee of the State Bar, or otherwise
authorized pursuant to statute or court rule to
practice law in this state at the time of doing so,
is guilty of a misdemeanor punishable by up to
one year in a county jail or by a fine of up to one
thousand dollars ($1,000), or by both that fine
and imprisonment. Upon a second or subsequent
conviction, the person shall be confined in a county
jail for not less than 90 days, except in an unusual
case where the interests of justice would be served
by imposition of a lesser sentence or a fine. If the
court imposes only a fine or a sentence of less than
90 days for a second or subsequent conviction
under this subdivision, the court shall state the
reasons for its sentencing choice on the record.
(b) Any person who has been involuntarily
enrolled as an inactive licensee of the State Bar,
or whose license has been suspended, or has been
disbarred, or has resigned from the State Bar with
charges pending, and thereafter practices or
attempts to practice law, advertises or holds
himself or herself out as practicing or otherwise
entitled to practice law, is guilty of a crime
punishable by imprisonment pursuant to subdi-

App.86a
vision (h) of Section 1170 of the Penal Code or in
a county jail for a period not to exceed six months.
However, any person who has been involuntarily
enrolled as an inactive licensee of the State Bar
pursuant to paragraph (1) of subdivision (e) of
Section 6007 and who knowingly thereafter practices or attempts to practice law, or advertises or
holds himself or herself out as practicing or
otherwise entitled to practice law, is guilty of a
crime punishable by imprisonment pursuant to
subdivision (h) of Section 1170 of the Penal Code
or in a county jail for a period not to exceed six
months.
(c) The willful failure of a licensee of the State
Bar, or one who has resigned or been disbarred,
to comply with an order of the Supreme Court to
comply with Rule 9.20 of the California Rules of
Court, constitutes a crime punishable by imprisonment pursuant to subdivision (h) of Section 1170
of the Penal Code or in a county jail for a period
not to exceed six months.
(d) The penalties provided in this section are
cumulative to each other and to any other
remedies or penalties provided by law.
California Business and Professions Code 6127
The following acts or omissions in respect to the
practice of law are contempt’s of the authority of
the courts:
(a) Assuming to be an officer or attorney of a
court and acting as such, without authority.

App.87a
(b) Advertising or holding oneself out as practicing or as entitled to practice law or otherwise practicing law in any court, without
being an active licensee of the State Bar.
Proceedings to adjudge a person in contempt of
court under this section are to be taken in
accordance with the provisions of Title V of Part
III of the Code of Civil Procedure.
California State Bar Rule 5.5
(b) A lawyer who is not admitted to practice
law in California shall not:
(1) except as authorized by these rules or other
law, establish or maintain a resident office
or other systematic or continuous presence
in California for the practice of law; or
(2) hold out to the public or otherwise represent
that the lawyer is admitted to practice law
in California.
Santa Monica City Charter § 613 Open Meetings.
(a) Unless otherwise permitted by federal or
state law, City Council meetings shall be open
and accessible to all members of the public. The
City Council may hold its meetings in the City
Council Chambers of the City Hall or at such
other locations as the City Council may by
ordinance or resolution designate.
(b) The City Council shall by ordinance establish
procedures for informing the public of its
meetings. The ordinance shall ensure that, to

App.88a
the maximum extent feasible, the public is
provided with timely and adequate notice of City
Council agenda and that the public is provided
with the opportunity to comment on proposed
City Council actions.

